fv

some  CQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B th efs contact@cocklelegalbriefs.com
St. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-638
NELIDA MARIBEL DIAZ JUAREZ
AND NALBERTA BRAVO DIAZ,
Petitioners,
Vv.

COMMONWEALTH OF KENTUCKY CABINET
FOR HEALTH AND FAMILY SERVICES,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 1671 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of December, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \ if
State of Nebraska . ,
My Commission Expires Nov 24, 2020

Notary Public Affiant

 

39200
